September 29, 2000

KENNETH C. WEAVER
CHIEF POSTAL INSPECTOR

SUBJECT:	 Transmittal of Audit Report – Review of the United States Postal
          Inspection Service Budget Process (Report Number OV-AR-00-005)

This report presents the results of our audit of the Postal Inspection Service budget
process (Project Number 00CA001OV000). Our objective was to evaluate the
effectiveness of the Inspection Service’s budget process. This report addresses our
review of the planning and formulation of the Inspection Service’s annual budget and is
the first in a series of reports addressing the Inspection Service budget process.
Follow-on reports will address the execution of the Inspection Service’s annual budget
and personnel staffing requirements.

The audit disclosed that Inspection Service management instituted a process for
planning and formulating the Inspection Service’s annual budget. However, the audit
also disclosed that the Inspection Service budget process could be improved.
Specifically, Inspection Service management did not link the Inspection Service’s
budgetary resources to performance-related goals and functions.

Management provided comments to the report and agreed with our recommendations.
Management’s comments and our evaluation are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Cathleen Berrick, director, Oversight, or me
at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

Attachment

cc: 	James K. Belz
    John R. Gunnels
Review of the United States Postal                         OV-AR-00-005
 Inspection Service Budget Process


                                     TABLE OF CONTENTS 

Executive Summary                                                 i


Part I 


Introduction                                                      


   Background                                                    1
   Objective, Scope, and Methodology                             3


Part II

Audit Results                                                    4


   Budget Process                                               4

   Recommendations                                              9
   Management’s Comments                                        9

   Evaluation of Management’s Comments                         10 


Appendix. Management’s Comments                                17 

Review of the United States Postal                                              OV-AR-00-005
 Inspection Service Budget Process


                                     EXECUTIVE SUMMARY
Introduction 	               This report presents the results of our audit of the planning
                             and formulation of the Inspection Service’s annual budget
                             and is the first in a series of reports addressing the
                             Inspection Service budget process. Follow-on reports will
                             address the execution of the Inspection Service’s annual
                             budget and personnel staffing requirements. Our overall
                             objective was to evaluate the effectiveness of the Inspection
                             Service’s budget process. Specifically, we evaluated the
                             process used to plan and formulate the Inspection Service’s
                             annual administrative operating budget.

Results in Brief	            Our audit disclosed that Inspection Service management
                             instituted a process for planning and formulating the
                             Inspection Service’s annual budget. However, the audit
                             also disclosed that the Inspection Service budget process
                             could be improved. Specifically, Inspection Service
                             management did not link the Inspection Service’s
                             fiscal year 2000 budgetary resources to performance-
                             related goals and functions. This occurred because
                             Inspection Service management did not establish a process
                             for annually determining the Inspection Service’s personnel
                             requirements and for allocating these resources by location.

                             In addition, Inspection Service management did not prepare
                             a strategic plan and annual performance plan in accordance
                             with the Government Performance and Results Act of 1993,
                             as set forth in Title 39 of the U.S. Code, Sections 2802 and
                             2803. Further, Inspection Service management did not
                             issue a written request for estimated operating expenses
                             with additional instructions to field divisions when planning
                             and formulating the Inspection Service’s annual
                             administrative operating budget. Finally, management
                             controls were not adequate to ensure that Inspection
                             Service budgetary resources were linked to performance-
                             related goals and functions. As a result, there is an
                             increased risk that the Inspection Service may not be
                             providing an appropriate level of service to all of its
                             customers.




                                               i
Review of the United States Postal                                              OV-AR-00-005
 Inspection Service Budget Process


Summary of                   We recommend that the chief postal inspector establish a
Recommendations              process for annually assessing personnel requirements and
                             allocating resources; prepare strategic plans and annual
                             performance plans in accordance with the Government
                             Performance and Results Act of 1993, as set forth in
                             Title 39 of the U.S. Code; and issue written requests for
                             estimated operating expenses with additional instructions to
                             field division management when planning and formulating
                             the annual budget.

Management’s                 The deputy chief inspector, Professional Standards and
Comments                     Resource Development, agreed with the recommendations
                             and identified the following corrective actions.

                             •	 Although assessing personnel requirements and
                                allocating resources requires a continuous assessment,
                                the Inspection Service will endeavor to strengthen their
                                current processes through an expanded program
                                management function and the allocation of resources
                                based on strategic direction.

                             •	 The Inspection Service will prepare future updates to the
                                strategic plan that fully cover the five-year planning
                                period and identify the resources required to meet goals
                                and objectives.

                             •	 The Inspection Service will prepare an annual
                                performance plan that allocates resources based on
                                performance-related goals and functions.

                             •	 The Inspection Service will issue written requests for
                                estimated operating expenses with additional
                                instructions to field division management when planning
                                and formulating the annual administrative operating
                                budget.

                             The deputy chief inspector provided additional comments
                             on several report statements. Management’s comments, in
                             their entirety, are included in an Appendix of this report.




                                              ii
Review of the United States Postal                                            OV-AR-00-005
 Inspection Service Budget Process


Overall Evaluation of        Management’s comments were responsive to the
Management’s                 recommendations. We believe that the corrective actions
Comments                     identified by management will help ensure that budgetary
                             resources are linked to performance-related goals and
                             functions.




                                              iii
Review of the United States Postal                                                      OV-AR-00-005
 Inspection Service Budget Process


                                               INTRODUCTION
Background 	                        The Postal Inspection Service is responsible for ensuring
                                    the integrity of the mail and Postal Service by providing
                                    investigative, security, and preventive services, and by
                                    enforcing federal statues that protect the mail, postal
                                    employees, customers, and assets. To meet its wide-
                                    ranging responsibilities, the Inspection Service has a
                                    complement of 4,373 employees of which approximately
                                    2,079 are postal inspectors, 1,446 are postal police
                                    officers, and 848 are support personnel.1 The Inspection
                                    Service is comprised of a headquarters, 18 field
                                    operations divisions with subordinate domiciles,
                                    5 operations support groups, and 5 forensic laboratories.

                                    The Inspection Service’s annual administrative operating
                                    budget reflects the Inspection Service’s operating plan in
                                    quantitative terms of dollars required to accomplish its
                                    goals in all functional areas. The budget is the Inspection
                                    Service's primary operational planning and control tool.

                                    At the beginning of fiscal year (FY) 2000, the Inspection
                                    Service’s administrative operating budget was $472.3
                                    million. The budget included personnel costs of $390.1
                                    million and nonpersonnel costs of $82.2 million. During
                                    FY 2000, the Inspection Service’s personnel budget was
                                    reduced by $4.5 million and its nonpersonnel budget was
                                    reduced by $4.4 million in support of the Postal Service’s
                                    management challenge and general reductions.

Budget Process 	                    The Inspection Service Manual identifies the process to be
                                    used to plan, formulate, and execute the Inspection
                                    Service’s annual administrative operating budget. The
                                    Inspection Service Manual requires that all levels of
                                    management be involved in the budget process due to its
                                    impact on all operating levels, activities, and planning. The
                                    Inspection Service’s annual administrative operating budget
                                    process consists of the preparation, authorization, and
                                    control phases:

                                    •	 Preparation Phase. Prior to the beginning of the fiscal
                                       year, Postal Service Finance and Administrative
                                       Services group officials issue the annual budget call to

1
    Inspection Service complement figures as of April 21, 2000.




                                                            1
Review of the United States Postal                                                                    OV-AR-00-005
 Inspection Service Budget Process


                                      the chief postal inspector requesting estimated operating
                                      expense requirements for the Inspection Service for the
                                      next two fiscal years and capital investment plan for the
                                      next five fiscal years. The chief postal inspector issues
                                      a budget call with additional instructions to Inspection
                                      Service division and Operations Support group
                                      management.

                                  •	 Authorization Phase. At the beginning of the fiscal
                                     year, the chief postal inspector provides each division
                                     and operations support group an authorized budget
                                     against which expenditures are made. Division and
                                     operations support group management may not exceed
                                     their authorized budgets unless they obtain prior
                                     approval. Readjustments to the authorized budget
                                     generally occur during mid-year, after accounting period
                                     6 of the fiscal year.2

                                  •	 Control Phase. Inspection Service officials at each
                                     division use the Budget Tracking System to monitor and
                                     control expenditures made against the authorized
                                     budget. Inspection Service officials at each division
                                     further monitor the division’s financial performance as
                                     indicated in the Accounting Period Budget Status
                                     Report.

Government                        The Government Performance and Results Act of 1993 was
Performance and                   enacted to improve the efficiency and effectiveness of
Results Act of 1993               federal programs by establishing a system to set goals for
                                  program performance and to measure results. Title 39 of
                                  the U.S. Code, Sections 2802 and 2803, set forth Postal
                                  Service requirements related to the Government
                                  Performance and Results Act of 1993. Specifically, Title 39
                                  requires the Postal Service to develop a strategic plan in
                                  which they define their mission, establish results-oriented
                                  goals, and identify the strategies they will use to achieve
                                  those goals for not less than a five-year period. Postal
                                  Service officials are required to update this plan every
                                  three years. Title 39 further requires that the strategic
                                  plan provide a description of the operational processes,
                                  skills, and technology, and human capital information, and
                                  other resources required to meet goals and objectives.

2
 An accounting period is a four-week period that forms one thirteenth of a Postal Service fiscal year. Accounting
period 6 covered the period January 29, 2000, through February 25, 2000.




                                                          2
Review of the United States Postal                                              OV-AR-00-005
 Inspection Service Budget Process



                             The Postal Service is also required to develop an annual
                             performance plan to establish a link between budget
                             requests and performance planning efforts. Title 39
                             requires that the annual performance plan:

                             •	 Identify annual performance goals and measures for
                                each of the Postal Service’s program activities.

                             •	 Discuss the strategies and resources needed to
                                achieve the performance goals.

                             •	 Explain the procedures the Postal Service will use to
                                verify and validate its performance data.

Objective, Scope, and        Our overall objective was to evaluate the effectiveness of
Methodology                  the Inspection Service’s budget process. Specifically, we
                             evaluated the process used to plan and formulate the
                             Inspection Service’s annual administrative operating
                             budget. The audit was conducted from February through
                             September 2000 in accordance with generally accepted
                             government auditing standards. We reviewed
                             management controls over the budgeting process as they
                             relate to the audit objective.

                             To accomplish our objective, we interviewed personnel at
                             Postal and Inspection Service headquarters concerning the
                             planning and formulation of the Inspection Service’s
                             FY 2000 annual administrative operating budget. We also
                             judgmentally selected 10 of 18 Inspection Service field
                             divisions and interviewed managers, inspectors, and
                             support personnel concerning their role in the budget
                             process. We reviewed the FY 2000 administrative
                             operating budget, Inspection Service Manual, Inspection
                             Service Level of Service Review, Inspection Service
                             Strategic Plan, division Budget Tracking System reports,
                             Inspection Service Database Information System reports,
                             staffing levels, division reports, and the Government
                             Performance and Results Act of 1993.

                             We discussed our conclusions and observations with
                             appropriate management officials and included their
                             comments where appropriate.




                                              3
Review of the United States Postal                                              OV-AR-00-005
 Inspection Service Budget Process


                                     AUDIT RESULTS
Budget Process               Inspection Service management instituted a process for
                             planning and formulating the Inspection Service’s annual
                             budget. However, the Inspection Service budget process
                             could be improved. Specifically, Inspection Service
                             management did not link the Inspection Service’s budgetary
                             resources to performance-related goals and functions. This
                             occurred because Inspection Service management did not
                             establish a process for annually determining the Inspection
                             Service’s personnel requirements and for allocating these
                             resources by location.
                             In addition, Inspection Service management did not prepare
                             a strategic plan and annual performance plan in accordance
                             with the Government Performance and Results Act of 1993,
                             as set forth in Title 39 of the U.S. Code, Sections 2802 and
                             2803. Further, Inspection Service management did not
                             issue a written request for estimated operating expenses
                             with additional instructions to field divisions when planning
                             and formulating the Inspection Service’s annual
                             administrative operating budget. Finally, management
                             controls were inadequate to ensure that Inspection Service
                             budgetary resources were linked to performance-related
                             goals and functions. As a result, there is an increased risk
                             that the Inspection Service may not be providing an
                             appropriate level of service to all of its customers.

Linkage of Budgetary         Inspection Service management did not link the Inspection
Resources to Goals           Service’s FY 2000 annual administrative operating budget
and Functions                to performance-related goals and functions. Rather,
                             Inspection Service management based the Inspection
                             Service’s annual administrative operating budget on prior
                             years’ funding levels. In addition, Inspection Service
                             management did not perform a comprehensive review of
                             Inspection Service personnel requirements and assumed
                             that the Inspection Service’s current authorized complement
                             was correct. As a result, Inspection Service management
                             developed the Inspection Service’s personnel budget based
                             on the current on-board compliment plus or minus
                             anticipated gains or losses for FY 2000. Inspection Service
                             management further allocated nonpersonnel costs based
                             on previous year’s expenses minus Postal Service
                             mandated reductions, rather than current performance-
                             related goals and functions.




                                               4
Review of the United States Postal                                                OV-AR-00-005
 Inspection Service Budget Process



Determination of             Inspection Service management did not establish a process
Inspection Service           for annually determining the Inspection Service’s personnel
Personnel Needs and          requirements and for allocating these resources by location.
Allocations                  Specifically, Inspection Service management did not
                             establish a process to determine annually whether the
                             Inspection Service was operating under the appropriate
                             staffing levels and mixture of positions, and whether staff
                             was appropriately allocated among the headquarters and
                             field operating units.

                             Inspection Service management conducted their most
                             comprehensive study of inspector staffing requirements in
                             1994. However, this study did not fully assess Inspection
                             Service staffing requirements. Specifically, officials
                             conducting the study assumed that the overall complement
                             of inspectors was correct and only assessed the allocation
                             of inspectors among the Inspection Service divisions.
                             Inspection Service management conducted additional
                             staffing studies addressing various Inspection Service
                             positions, duties, and functions. However, these studies
                             either did not assess all Inspection Service positions or did
                             not reflect recent changes affecting the organization.

                             Significant changes have occurred that should have
                             impacted Inspection Service personnel requirements and
                             allocations resulting in the need for redeployment of
                             personnel, such as:

                             •	 Creation of the Postal Service Office of Inspector
                                General (OIG). The creation of the Postal Service OIG
                                in 1997 resulted in a redesignation of selected
                                investigative functions from the Inspection Service to the
                                OIG. In addition, Inspection Service management
                                decided to divest the Inspection Service of all audit
                                functions. These audit functions were subsequently
                                transferred to the OIG. Although Inspection Service
                                management agreed to reduce positions due to the
                                creation of the OIG and divestiture of their audit function,
                                Inspection Service management has not conducted a
                                study to reassess their staffing requirements since 1994,
                                three years before the OIG was created.

                             •	 New Products and Services. New products and
                                services such as the Point-of-Service ONE, an electronic




                                               5
Review of the United States Postal                                                      OV-AR-00-005
 Inspection Service Budget Process


                                        retail sales device, as well as other highly automated
                                        systems, challenge the Inspection Service to provide
                                        enhanced internal security for automated environments,
                                        and protect new technologies from criminal attack.

                                   •	 Computers and Technology. Computer enabled crime
                                      is rising and criminals have an increasingly sophisticated
                                      understanding of the capabilities of technology to assist
                                      them in their efforts to steal postal revenue and defraud
                                      postal consumers.

                                   •	 Population Demographics and Crime Trends. The
                                      United States population is shifting from the older urban
                                      areas to the Western and Sunbelt states. In addition,
                                      Inspection Service management estimates that there will
                                      be a geographic shift in crime in the future. Specifically,
                                      crimes will be less neighborhood orientated and will
                                      increase more quickly in the Western and the Sunbelt
                                      states than in older urban centers.3

                                    Considering these factors, there is an increased risk that
                                    the Inspection Service may not be operating under the
                                    appropriate staffing levels and mixture of positions, and
                                    may not be appropriately allocating staff.

Strategic and Annual                As a Postal Service program activity, Inspection Service
Performance Plans                   management identified their commitment to fulfilling the
                                    requirements of the Government Performance and Results
                                    Act of 1993, as set forth in Title 39 of the U.S. Code,
                                    Sections 2802 and 2803. Specifically, Title 39 of the U.S.
                                    Code, Sections 2802 and 2803, require that the Postal
                                    Service develop a strategic plan and annual performance
                                    plan to assist in strategic planning and performance
                                    management. In support of this effort, Inspection Service
                                    management identified, in their FY 1999 Annual Report of
                                    Investigations and FY 1998 through FY 2002 strategic plan,
                                    requirements of the Government Performance and Results
                                    Act of 1993 affecting the Inspection Service and their
                                    commitment to fulfilling those requirements.

                                    Although the Inspection Service identified their commitment
                                    to fulfilling the requirements of the Government
                                    Performance and Results Act of 1993, as set forth in

3
    United States Postal Inspection Service Strategic Plan, FY 1998 – 2002.




                                                           6
Review of the United States Postal                                                                      OV-AR-00-005
 Inspection Service Budget Process


                                  Title 39 of the U.S. Code, Inspection Service management
                                  did not prepare a strategic plan that covered the five-year
                                  planning period. In addition, Inspection Service
                                  management did not link the strategic plan to the Inspection
                                  Service budget by identifying resources required to meet
                                  goals and objectives.4 Specifically, as reported in the
                                  Inspection Service’s FY 1999 Annual Report of
                                  Investigations, the FY 1998 through FY 2002 strategic plan
                                  did not completely cover the five-year planning period. For
                                  example, many of the targets were developed for only a
                                  two-year period and links between goals and all Inspection
                                  Service projects were not clearly established. More
                                  importantly, the FY 1999 Annual Report of Investigations
                                  identified that the strategic plan was not tied to the
                                  Inspection Service budget.

                                  Furthermore, Inspection Service management did not
                                  prepare an annual performance plan in accordance with
                                  Title 39 of the U.S. Code. Although Inspection Service
                                  management prepared a FY 1998–2002 strategic plan,
                                  management did not prepare an annual performance plan
                                  that described (1) human and other resources needed and
                                  (2) how it proposed to align the Inspection Service’s
                                  resources with its activities to support mission-related
                                  outcomes. Rather, the Inspection Service’s annual plan
                                  was a one-page document that listed only goals, indicators,
                                  and targets.5 To develop a performance plan in accordance
                                  with Title 39 and the Government Performance and Results
                                  Act of 1993, Inspection Service management must allocate
                                  resources based on performance-related goals and
                                  functions.

Written Request for               Inspection Service management did not issue a written
Estimated Operating               request for estimated operating expenses with additional
Expenses                          instructions to field divisions when planning and formulating
                                  the Inspection Service’s annual administrative operating
                                  budget, as required by Inspection Service Policy.
                                  Specifically, Inspection Service management provided
                                  divisions with a nonpersonnel funding authorization based
                                  on prior year’s funding levels. Inspection Service
                                  management did not provide field division management the

4
  We did not assess whether the Inspection Service’s efforts, including the development of a strategic plan, were
appropriately incorporated into the Postal Service’s efforts in support of Title 39 of the U.S. Code, Sections 2802 and
2803. The OIG will assess this incorporation during a future review.
5
  Inspection Service management prepared and implemented action plans to achieve goals and targets.




                                                           7
Review of the United States Postal                                               OV-AR-00-005
 Inspection Service Budget Process


                             opportunity to identify formally current requirements from
                             which to base budget allocations. As a result, changes in
                             division requirements, such as the addition of domiciles and
                             reduction in travel requirements due to the loss of audit
                             functions, were not fully considered in the planning and
                             formulation of the divisions’ operating budgets. Inspection
                             Service headquarters management identified that they
                             contacted division management to obtain verbal input for
                             the budget but did not issue a written request for estimated
                             operating expenses due to time constraints imposed by the
                             Postal Service.

Management Controls          Management controls over the planning and formulation of
                             the Inspection Service’s annual administrative operating
                             budget did not ensure that budgetary resources were linked
                             to performance-related goals and functions. Specifically,
                             management controls did not exist to ensure Inspection
                             Service management annually determined the Inspection
                             Service’s personnel requirements and allocations, and
                             developed a strategic plan and performance plan in
                             accordance with the Government Performance and Results
                             Act of 1993. In addition, established management controls,
                             such as budget preparation policy identified in the
                             Inspection Service Manual, were not effective in ensuring
                             that Inspection Service management issue a written request
                             for estimated operating expenses to field division
                             management when planning and formulating the annual
                             administrative operating budget.

Level of Service to          There is an increased risk that the Inspection Service may
Customers                    not be providing an appropriate level of service to all of its
                             customers. The environment in which the Inspection
                             Service operates has changed significantly in recent years.
                             Accordingly, the needs of Inspection Service customers
                             have also changed. Specifically, new products and
                             services, technological advances, and population and crime
                             shifts have affected customer requirements. In addition, the
                             creation of the Postal Service OIG, which resulted in a
                             redesignation of selective investigative functions, and the
                             Inspection Service’s divestiture of their audit function, has
                             further impacted staffing requirements. However,
                             Inspection Service management has not conducted a
                             recent, comprehensive review of personnel requirements
                             and allocations to reflect these changes. As a result,
                             Inspection Service management may not be assured that




                                               8
Review of the United States Postal                                                OV-AR-00-005
 Inspection Service Budget Process


                             the Inspection Service is providing the appropriate level of
                             service to all Inspection Service customers.

Federal Law                  Inspection Service management is in the process of
Enforcement Strategic        developing and implementing a federal law enforcement
Planning Model               strategic planning model to assist in strategic planning.
                             Specifically, Inspection Service management hired a
                             consultant to conduct a law enforcement environmental
                             analysis in accordance with industry standards and identify
                             strategic priority issues. The effort is scheduled to be
                             completed in March 2001. We believe that this is a good
                             initial step in identifying and prioritizing the Inspection
                             Service’s strategic requirements. However, we believe that
                             additional efforts, such as a comprehensive personnel
                             requirements and allocation study, development of an
                             annual performance plan, and increased involvement of
                             division management in the budget planning and
                             formulation process, is required to provide assurance that
                             the Inspection Service is providing an appropriate level of
                             service to all of its customers.

Recommendation               We offer the following recommendations.

                             The chief postal inspector should:

                             1. Establish a process for annually assessing personnel
                                requirements of each organizational element and
                                allocate resources based on the relative priority of
                                mission and functions.

Management’s                 The deputy chief inspector, Professional Standards and
Comments                     Resource Development, stated that the Inspection Service
                             would endeavor to strengthen their current processes for
                             establishing personnel requirements and allocating
                             resources through an expanded program management
                             function and the allocation of resources based on strategic
                             direction. The deputy chief inspector further identified that
                             Inspection Service resource requirements are assessed on
                             a continuous basis and include consideration of the
                             Inspection Service’s mission, goals, stakeholder input,
                             customer feedback, postal crimes, and other factors.




                                               9
Review of the United States Postal                                               OV-AR-00-005
 Inspection Service Budget Process


Evaluation of                Management’s comments are responsive to our
Management’s                 recommendation. We agree that an assessment of
Comments                     personnel requirements should be done on a continual
                             basis. However, we also believe that the Inspection Service
                             should annually assess personnel requirements to ensure
                             that organizational changes impacting staffing are
                             systematically considered and incorporated into the
                             budgeting process.

Recommendation               2. Prepare future updates to the strategic plan that fully
                                cover the five year planning period and identify the
                                resources required to meet goals and objectives.

Management’s                 The deputy chief inspector agreed with our
Comments                     recommendation and stated that Inspection Service
                             management is preparing a new strategic plan for FY 2001-
                             2006 that will include the Inspection Service’s sustaining
                             work and identify required budgetary resources. The
                             deputy chief inspector further stated that the Inspection
                             Service hired a consultant to help the Inspection Service
                             renew its strategic focus.

Evaluation of                Management’s comments are responsive to our
Management’s                 recommendation. The Inspection Service’s efforts to revise
Comments                     their strategic plan and renew their strategic focus should
                             help ensure the achievement of organizational goals and
                             objectives.

Recommendation               3. Prepare an annual performance plan that allocates
                                resources based on performance-related goals and
                                functions.

Management’s                 The deputy chief inspector agreed with our
Comments                     recommendation and stated that the Inspection Service will
                             prepare an annual performance plan that allocates
                             resources based on performance-related goals and
                             functions. The deputy chief inspector also added that the
                             one page document referenced in the report that listed
                             goals, indicators, and targets was not intended to be a
                             performance plan.




                                              10
Review of the United States Postal                                              OV-AR-00-005
 Inspection Service Budget Process



Evaluation of                Management’s comments are responsive to our
Management’s                 recommendation. Inspection Service officials identified
Comments                     during the audit that the one page document listing goals,
                             indicators, and targets was the Inspection Service’s annual
                             performance plan.

Recommendation               4. Issue written requests for estimated operating expenses
                                with additional instructions to field division management
                                when planning and formulating the annual administrative
                                operating budget.

Management’s                 The deputy chief inspector agreed with our recommendation
Comments                     and stated that the Inspection Service will issue written
                             requests for estimated operating expenses with additional
                             instructions to field division management when planning and
                             formulating the annual administrative operating budget. The
                             deputy chief inspector further identified that although time
                             constraints prevented management from requesting written
                             budget estimates during the FY 2000 budget process,
                             management consulted with field divisions to obtain
                             associated input. The deputy chief inspector also stated
                             that the Inspection Service issued written requests for
                             estimated operating expenses and associated instructions
                             to field division management during the FY 2001 budget
                             process.

Evaluation of                Management’s comments are responsive to our
Management’s                 recommendation. In addition, management’s written
Comments                     requests for estimated operating expenses to division
                             management during the FY 2001 budget process should
                             help ensure that division changes are fully considered
                             during the planning and formulation of the Inspection
                             Service’s operating budget.

                             We identified in the report that Inspection Service
                             management cited time constraints imposed by the Postal
                             Service as a reason for not issuing written requests for
                             estimated operating expenses. We further identified that
                             headquarters management contacted division officials to
                             obtain verbal input for the budget. However, we believe that
                             management should have anticipated their annual
                             budgeting requirement and planned accordingly to ensure
                             that written requests for estimated operating expenses were




                                              11
Review of the United States Postal                                                 OV-AR-00-005
 Inspection Service Budget Process


                             issued as required. The issuance of written requests for
                             estimated operating expenses would help ensure that
                             division officials had the opportunity to fully consider and
                             communicate division requirements in support of
                             headquarters’ budgeting efforts.




                                               12
Review of the United States Postal                                                OV-AR-00-005
 Inspection Service Budget Process



Additional                   The deputy chief inspector provided additional comments
Management                   on several report statements and conclusions. These
Comments                     comments and our evaluation of the comments are
                             summarized below.

                             The deputy chief inspector stated that the report did not list
                             which management controls were inadequate and,
                             therefore, management could not respond in a specific
                             manner. However, the deputy chief inspector pointed out
                             that the Inspection Service maintains an electronically
                             accessible management tracking system that identifies
                             organizational progress toward annual strategic
                             improvement goals and targets. The deputy chief inspector
                             further added that the Inspection Service uses additional
                             program management tools to monitor overall performance
                             and plans on strengthening and expanding their program
                             management capacity during FY 2001.


Evaluation of                We identified in the report that management controls,
Management’s                 specifically budget preparation policy identified in the
Comments                     Inspection Service Manual, were not effective in ensuring
                             that Inspection Service management issue a written request
                             for estimated operating expenses to field division
                             management when planning and formulating the annual
                             administrative operating budget. The additional controls
                             identified by management are not directly related to the
                             issuance of written requests for estimated operating
                             expenses. However, these controls, as well as plans to
                             strengthen these controls, should help ensure that
                             budgetary resources are linked to performance-related
                             goals and functions.




                                               13
Review of the United States Postal                                               OV-AR-00-005
 Inspection Service Budget Process



Management’s 	               The deputy chief inspector disagreed with our conclusion
Comments 	                   that there is an increased risk that the Inspection Service
                             may not be providing an appropriate level of service to all of
                             its customers. The deputy chief inspector stated that our
                             report contained no risk assessment data nor any
                             stakeholder or customer input to support this conclusion.
                             The deputy chief inspector further stated that the law
                             enforcement environment is dynamic and somewhat
                             controlled by reactionary forces.

Evaluation of                We continue to believe that because Inspection Service
Management’s                 management did not link the Inspection Service’s budgetary
Comments                     resources to performance-related goals and functions, there
                             is an increased risk that management may not be providing
                             an appropriate level of service to all of its customers.
                             Although we did not conduct a risk assessment of the
                             issues identified in the report and their affect on customer
                             service, we believe that the issues identified, including the
                             lack of a strategic plan an annual performance plan that
                             complied with the Government Performance and Results
                             Act of 1993 and lack of a written request for estimated
                             operating expenses, increase the likelihood that the
                             appropriate level of service may not be provided. In
                             addition, management’s assertion that the law enforcement
                             environment is dynamic and somewhat controlled by
                             reactionary forces further stresses the importance that
                             budgetary resources, whenever possible, be linked to
                             performance-related goals and functions.

Management’s                 The deputy chief inspector stated that although budgetary
Comments                     linkages to performance-related goals and functions may
                             not have been clearly articulated, Inspection Service
                             management committed administrative operating budgets to
                             achieving such goals. The deputy chief inspector further
                             stated that a dollar-for-dollar linkage between specific
                             operating costs and performance-related goals and
                             functions is not wholly possible since certain costs support
                             multiple goals and functions. Finally, the deputy chief
                             inspector added that management is capable of segregating
                             inspector work hours by function each month, thereby
                             linking resource commitments associated with each
                             investigation and preventive function.




                                              14
Review of the United States Postal                                               OV-AR-00-005
 Inspection Service Budget Process


Evaluation of                Although Inspection Service management committed
Management’s                 administrative operating budgets to achieving their overall
Comments                     goals, the linkage between the budget and specific goals
                             and functions were not clearly established. We agree that a
                             dollar-for-dollar linkage between specific costs, goals, and
                             functions may not be possible or practical. However, an
                             attempt must be made to establish linkages, as set forth in
                             the Government and Performance and Results Act of 1993,
                             under Title 39, to ensure organizational goals and
                             objectives are appropriately budgeted for and met.

                             Segregating work hours by function establishes a linkage
                             with investigations and preventive functions after those
                             investigations and functions have been conducted. Linking
                             work hours to functions after the functions have occurred,
                             unless used as historical data for future planning, does not
                             directly support the need for resource linkages during the
                             planning and formulation of the annual budget.

Management’s                 The deputy chief Inspector stated that as a result of the
Comments                     Inspection Service’s 1994 staffing study, a staffing baseline
                             was established. Furthermore, with rare exception, the
                             locations identified as understaffed in the study received
                             additional staffing. The deputy chief inspector further stated
                             that with rare exception, support staffing was increased to
                             reflect a 1993 internal study. The deputy chief inspector
                             also stated that the report did not identify a comprehensive
                             security force analysis conducted in 1997 or identify specific
                             benefits to be derived from simultaneously assessing all
                             Inspection Service positions.

Evaluation of                Although the intent of the Inspection Service’s 1994 staffing
Management’s                 study was to establish a baseline for inspector staffing,
Comments                     Inspection Service officials identified that recommendations
                             resulting from the study were not fully implemented. In
                             addition, the report recognized that Inspection Service
                             management conducted additional staffing reviews
                             addressing various Inspection Service positions, duties, and
                             functions. However, these reviews, including the 1993
                             support staff study and 1997 security force analysis, either t
                             did not reflect current organizational changes due to the
                             timeframe during which they were conducted or did not
                             include all Inspection Service positions. We believe that
                             personnel requirements must be annually assessed and




                                              15
Review of the United States Postal                                                OV-AR-00-005
 Inspection Service Budget Process


                             allocated as part of the budgeting process. However, we do
                             not believe, and did not identify in the report, that all
                             Inspection Service positions must undergo a detailed
                             assessment simultaneously. We referenced Inspection
                             Service staffing studies to identify that the lack of a recent,
                             comprehensive staffing review further stresses the need for
                             an annual assessment of personnel requirements during
                             the budgeting process.

Management’s                 The deputy chief inspector stated that the Inspection
Comments                     Service has responded to the significant changes affecting
                             the organization that were identified in the report.
                             Specifically, management identified a reduction of
                             245 positions as a result of the creation of the OIG, created
                             Computer Crimes and Digital Evidence Units, and provided
                             training in computer searches and internet investigations.
                             The deputy chief inspector further stated that changes in
                             population demographics did not necessarily parallel the
                             existence of Postal crimes or Inspection Service workload.

Evaluation of                We agree that the Inspection Service has identified staffing
Management’s                 reductions due to the creation of the OIG. However, we
Comments                     believe that the significant impact that the creation of the
                             OIG has had on the Inspection Service, as well as continual
                             changes affecting both organizations such as the revised
                             designation of functions, warrants a comprehensive review
                             and continual assessment.

                             The creation of the Computer Crimes and Digital Evidence
                             Units and associated training should help the Inspection
                             Service meets future challenges. However, the Inspection
                             Service FY 1998 through FY 2002 strategic plan identified
                             that computers and technology, new products and services,
                             and population demographics and crime trends will continue
                             to be challenges for the Inspection Service in the future. As
                             a result, we believe that these areas should continually be
                             reviewed and their impact on the Inspection Service, to
                             include staffing requirements, assessed. We plan to
                             conduct a separate review of Inspection Service staffing
                             requirements, to include a review of significant changes
                             affecting the organization, during FY 2001.




                                               16
Review of the United States Postal                                             OV-AR-00-005
 Inspection Service Budget Process



Management’s 	               The deputy chief inspector stated that the Government
Comments 	                   Performance and Results Act of 1993, as set forth in
                             Title 39 of the U.S. Code, requires compliance by the Postal
                             Service rather the Inspection Service. The deputy chief
                             inspector stated, however, that the Inspection Service fully
                             supports the intent of the Government Performance and
                             Results Act and has endeavored to apply its principles
                             within the Inspection Service as sound management
                             practices.

Evaluation of                We agree, as identified in the report, that Title 39 of the
Management’s                 U.S. Code requires the Postal Service, rather than the
Comments                     Inspection Service, to develop a strategic plan and annual
                             performance plan in accordance with the Government
                             Performance and Results Act of 1993. We further agree,
                             and identified in the report, that as a Postal Service
                             program activity, Inspection Service management identified
                             their commitment to fulfilling the requirements of the
                             Government Performance and Results Act in their FY 1999
                             Annual Report of Investigations and FY 1998 through FY
                             2002 strategic plan. We continue to assert that compliance
                             with the Government Performance and Results Act of 1993
                             is a Postal Service requirement. However, we believe that
                             the Inspection Service, due to their public commitment and
                             reference to the Government Performance and Results Act,
                             should comply with the Act’s requirements.




                                              17
Review of the United States Postal                    OV-AR-00-005
 Inspection Service Budget Process


                    APPENDIX. MANAGEMENT’S COMMENTS




                                     18
Review of the United States Postal        OV-AR-00-005
 Inspection Service Budget Process




                                     19
Review of the United States Postal        OV-AR-00-005
 Inspection Service Budget Process




                                     20
Review of the United States Postal        OV-AR-00-005
 Inspection Service Budget Process




                                     21
Review of the United States Postal        OV-AR-00-005
 Inspection Service Budget Process




                                     22
Review of the United States Postal        OV-AR-00-005
 Inspection Service Budget Process




                                     23
Review of the United States Postal        OV-AR-00-005
 Inspection Service Budget Process




                                     24
Review of the United States Postal        OV-AR-00-005
 Inspection Service Budget Process




                                     25
